APPENDIX

App. 1
In the United States Court of Appeals
for the Second Circuit
-----------------------------------------------------------------------

AUGUST TERM 2019
No. 19-600-cv
RADAMES DURAN, ON BEHALF OF HIMSELF
AND ALL OTHERS SIMILARLY SITUATED,
Plaintiff-Appellant,
v.
LA BOOM DISCO, INC.,
Defendant-Appellee.
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the Eastern District of New York
-----------------------------------------------------------------------

SUBMITTED: DECEMBER 13, 2019
DECIDED: APRIL 7, 2020
-----------------------------------------------------------------------

Before: CABRANES and LOHIER, Circuit Judges, and
REISS, District Judge.*
-----------------------------------------------------------------------

Plaintiff-Appellant Radames Duran (“Duran”)
claims that he received, over the course of more than
a year-and-a-half, hundreds of unsolicited text
messages from Defendant-Appellant La Boom Disco,
* Judge Christina Reiss, of the United States District Court
for the District of Vermont, sitting by designation.

App. 2
Inc. (“LBD”), all sent using Automatic Telephone Dialing Systems (“ATDSs”) in a way prohibited by the Telephone Consumer Protection Act of 1991 (“TCPA”). LBD
acknowledges that it sent the messages, but counters
that its actions were not prohibited by the TCPA
because the texting platforms used to send them were
not, in fact, ATDSs. Of course, only one party can be
right: either LBD used ATDSs, or it did not. If LBD did
do so, then it is liable to Duran under the TCPA. But if
LBD did not do so—if it used some non-ATDS technology to send its texts—then Duran has no case.
Duran appeals from a grant of summary judgment
in the U.S. District Court for the Eastern District of
New York (Allyne R. Ross, Judge) in favor of LBD. To
qualify as an ATDS, a dialing system must have both
the capacity “to store or produce telephone numbers to
be called, using a random or sequential number
generator[,]” 47 U.S.C. § 227(a)(1)(A), and the capacity
“to dial such numbers[,]” id. § 227(a)(1)(B). The District
Court concluded that the dialing systems used by LBD
meet only the first of these two statutory requirements
and therefore are not ATDSs. Because we determine
that LBD’s systems meet both statutory requirements,
we conclude that the systems qualify as ATDSs.
Accordingly, we VACATE the District Court’s judgment
and REMAND the cause for further proceedings
consistent with this opinion.
-----------------------------------------------------------------------

App. 3
C.K. Lee, Lee Litigation Group, PLLC,
New York, NY, for Plaintiff-Appellant.
Raymond J. Aab, New York, NY,
for Defendant-Appellee.
-----------------------------------------------------------------------

JOSÉ A. CABRANES, Circuit Judge.
In 1991, Congress set out to cure America of that
“scourge of modern civilization”: telemarketing.1
Alarmed that unsolicited advertising calls were
inundating the phones of average Americans, it passed
the Telephone Consumer Protection Act (“TCPA”),2
prohibiting certain kinds of calls made without the
recipient’s prior consent. Specifically, the TCPA permits a recipient to sue any caller if that caller used an
automatic telephone dialing system (“ATDS”) to reach
the recipient’s cell phone, with some exceptions.3 By
creating such a private cause of action, the hope was
that telemarketers would be deterred from undertaking ATDS-fueled advertising campaigns—and that
American cell phone users would have fewer “rings”
and “buzzes” interrupting their days.

These oft-quoted words come from the Telephone Consumer
Protection Act’s lead sponsor, Senator Ernest F. Hollings.
Painting the picture more fully, Senator Hollings noted that
telemarketers “wake us up in the morning; they interrupt our
dinner at night; they force the sick and elderly out of bed; they
hound us until we want to rip the telephone right out of the wall.”
137 Cong. Rec. 30,821 (1991).
2
47 U.S.C. § 227.
3
See id. § 227(b)(1), (3).
1

App. 4
Predictably, the TCPA has created much litigation
from consumers seeking to redress the all-too-common
injury of having received an unwanted phone call or
text message.4 But what is at heart a straightforward
law—giving individuals a right to sue for this kind of
intrusive advertising—has become complex to enforce.
This is because of a simple definitional question
that pervades TCPA litigation in our Circuit and
others: what exactly is an ATDS?5
It is this very question that is before us here.
Plaintiff-Appellant Radames Duran (“Duran”)
claims that he received, over the course of more than a
It is undisputed that “[a] text message to a cellular
telephone . . . qualifies as a ‘call’ within the compass of [the
TCPA].” Campbell-Ewald Co. v. Gomez, 136 S. Ct. 663, 667
(2016). Moreover, an unwanted text message is, for standing
purposes, an injury-in-fact. See Melito v. Experian Mktg.
Solutions, Inc., 923 F.3d 85, 93 (2d Cir. 2019) (noting that “text
messages, while different in some respects from the receipt of
calls or faxes specifically mentioned in the TCPA, present the
same ‘nuisance and privacy invasion’ envisioned by Congress
when it enacted the TCPA”).
5
A split has recently emerged on precisely this question,
with several Courts of Appeals reaching different conclusions on
whether an ATDS can pull numbers from a stored list when it
automatically dials, or whether it must randomly or sequentially
generate those numbers. The Ninth Circuit, which we follow here,
concluded that an ATDS can, indeed, make calls from stored lists.
See Marks v. Crunch San Diego, LLC, 904 F.3d 1041 (9th Cir.
2018). The Seventh, Eleventh, and Third Circuits have concluded
otherwise. See Gadelhak v. AT&T Servs., Inc., 950 F.3d 458 (7th
Cir. 2020); Glasser v. Hilton Grand Vacations Co., 948 F.3d 1301
(11th Cir. 2020); Dominguez v. Yahoo, Inc., 894 F.3d 116 (3d Cir.
2018).
4

App. 5
year-and-a-half, hundreds of unsolicited text messages
from Defendant-Appellee La Boom Disco (“LBD”), a
nightclub in Queens, New York, all sent using ATDSs.
LBD acknowledges that it sent the messages, but
counters that its actions were not prohibited by the
TCPA because the texting platforms it used to send
them were not, in fact, ATDSs. Of course, only one
party can be right: either LBD used ATDSs, or it did
not. If LBD did do so, then it is liable to Duran under
the TCPA. But if LBD did not do so—if it used some
non-ATDS technology to send its texts—then Duran
has no case.
So which is it?
I.

BACKGROUND

To arrive at a conclusion, we must start by going
back to March 2016, when Duran first took a trip out
to the club.
Around that time, Duran had seen an LBD
Facebook advertisement inviting interested club-goers
to text a code to a designated phone number in order
to secure free admission to a party, which he
voluntarily did. From that point on, his number was on
a list that LBD maintained, and he would receive,
according to his complaint, “anywhere from 7 to 15
messages a month” totaling “at least 300 unsolicited
text messages” overall.6 These text messages, some of
which were produced for the District Court, featured
6

App. 16.

App. 6
advertisements for LBD, describing events that would
take place there.
Over a year-and-a-half after the texts started,
Duran brought a putative class action against LBD in
the United States District Court for the Eastern
District of New York (Allyne R. Ross, Judge), on behalf
of himself and others similarly situated, seeking
damages under the TCPA for each message received.
He claimed that the messages were sent without his
consent and that they were sent using an ATDS,
triggering TCPA-liability.
LBD responded by denying that it violated the
TCPA. It conceded that the texts were sent (though by
its count, there were only 121, not somewhere near
300). Still, LBD argued that no matter the number, the
messages were properly conveyed, since the
technologies used to send them were not covered by the
statute. As LBD explained, it sent the messages using
two online systems: the ExpressText and EZ Texting
Programs (jointly, the “programs”). Although these
programs permitted LBD to blast out text messages to
hundreds of numbers at once, they were not ATDSs,
according to LBD, because, among other things, they
required too much human intervention when dialing.
Contrary to Duran’s claims, LBD argued that the
programs lacked the critical feature of those dialing
systems regulated by the TCPA. Simply put, they were
not automatic.

App. 7
The District Court agreed.7 It granted summary
judgment for LBD, deciding that the programs LBD
used to text Duran were not, as a matter of law, ATDSs.
In making its determination, the District Court
concluded that what sets apart an ATDS from a nonATDS is whether a human determines the time at
which a text message gets sent out. Accordingly, it held
that “because a user determines the time at which the
ExpressText and EZ Texting programs send messages
to recipients, they operate with too much human
involvement to meet the definition of an autodialer.”8
Duran appealed to this Court, seeking vacatur of
the judgment on the basis that the District Court
misinterpreted the TCPA. Since Duran’s appeal presents a pure question of statutory interpretation, we
now review the District Court’s judgment de novo,
coming to our own conclusion about what an ATDS is.9
II.

DISCUSSION

Generally, the TCPA prohibits the use of ATDSs to
produce unwanted phone calls or text messages.10
Duran v. La Boom Disco, Inc., 369 F. Supp. 3d 476
(E.D.N.Y. 2019).
8
Id. at 492.
9
See United States v. Williams, 733 F.3d 448, 452 (2d Cir.
2013) (“Interpretations of statutes are pure questions of law, and
we therefore review [them] de novo. . . .”).
10
“It shall be unlawful for any person within the United
States, or any person outside the United States if the recipient is
within the United States—(A) to make any call (other than a call
made for emergency purposes or made with the prior express
7

App. 8
Individuals who receive ATDS-generated calls or text
messages can sue the sender under the TCPA for at
least $500 for each unwanted call or text—and perhaps
more if the sender knowingly violates the statute.11
In determining whether a dialing system qualifies
as an ATDS, we begin, as we must, with the language
of the statute.12 According to the TCPA, a dialing
system qualifies as an ATDS if it has two concurrent
capacities. First, it must have the “capacity . . . to store
or produce telephone numbers to be called, using a
random or sequential number generator[.]”13 Second, it
must have the “capacity . . . to dial such numbers.”14
But this statutory language leaves much to
interpretation. If the numbers are stored, must they be
stored “using a random or sequential number
generator” (whatever that might mean)? Or is it only
consent of the called party) using any automatic telephone dialing
system or an artificial or prerecorded voice—(i) to any emergency
telephone line . . . ; (ii) to the telephone line of any guest room or
patient room of a hospital . . . ; (iii) to any telephone number
assigned to a paging service, cellular telephone service,
specialized mobile radio service, or other radio common carrier
service, or any service for which the called party is charged for
the call, unless such call is made solely to collect a debt owed to
or guaranteed by the United States. . . .” 47 U.S.C. § 227(b)(1).
11
Id. § 227(b)(3).
12
See Caraco Pharm. Labs., Ltd. v. Novo Nordisk A/S, 566
U.S. 399, 412 (2012) (“We begin where all such inquiries must
begin: with the language of the statute itself.” (internal quotation
marks omitted)).
13
47 U.S.C. § 227(a)(1)(A).
14
Id. § 227(a)(1)(B).

App. 9
that the numbers may be produced using such a
number-generator, and that they can be stored in any
way possible?
And what does it mean that the ATDS must be
able to “dial such numbers” that have been stored or
produced? If a human clicks “send” in a dialing system
in order to initiate a call or text message campaign—
one in which thousands of calls and texts are sent out
at once—is it the case that the human “dialed” each
number? Or did the dialing system dial on its own,
thereby qualifying as an ATDS?
These technical questions are not easily resolved.
They require close attention to Congress’s intent, as
expressed in the particular language of the statute, as
well as to the interpretation of the statute over the last
two decades by the Federal Communications Commission (“FCC”).
As explained above, LBD argues that its programs
are not ATDSs, since they lacked both capacities
required by the statute, and the absence of either one
is sufficient to render the programs non-ATDSs. Duran
argues the opposite—that the programs had the
capacity to both store numbers and to dial them, and
thus qualify as ATDSs.
We review these claims in turn, first assessing (1)
whether LBD’s programs had the “capacity . . . to store
or produce telephone numbers to be called, using a
random or sequential number generator[,]” and then
(2) whether they had the “capacity . . . to dial such
numbers.”

App. 10
(1) The “capacity . . . to store or produce telephone numbers to be called, using a random or sequential number generator”
Did LBD’s ExpressText and EZ Texting programs
have the “capacity . . . to store or produce telephone
numbers to be called, using a random or sequential
number generator”?
There are at least two ways of answering this
question, each based on a different approach to
interpreting the statute.15
The first approach suggests that the programs
lacked this first capacity required to be ATDSs because
they only dialed numbers from prepared lists—that is,
from lists that had been generated and uploaded to the
programs by humans. Since such prepared lists are
not, according to this interpretation, “store[d] or
produce[d]” with the use of a “random or sequential
number generator[,]” their use renders both programs,
by definition, non-ATDSs.
The second approach suggests that both programs
had the first capacity required to be considered ATDSs.
According to this approach, the clause requiring the
use of “a random or sequential number generator”
We note that there are “at least” two ways to interpret the
statute because the Seventh Circuit showed that there are as
many as four (and possibly more). See Gadelhak, 950 F.3d at 46364. However, we focus on the two interpretations that, in our
view, arise most naturally from the statute’s language, and that
have been adopted by our sister circuits. Compare id. at 460
(adopting the first approach) and Glasser, 948 F.3d at 1306 (same)
with Marks, 904 F.3d at 1052 (adopting the second approach).
15

App. 11
modifies only the verb “produce” in the statute, but not
the word “store.” This means that the numbers to be
called by an ATDS may be “stored” or they may be
“produced,” but only if they are produced must they
come from “a random or sequential number generator[.]” Since the numbers here are “stored” by the
programs, they are not, under this interpretation,
subject to the requirement that they be randomly or
sequentially generated. Rather, the mere fact that the
programs “store” the lists of numbers is enough to
render them ATDSs.
Since both parties agree that the numbers were
generated by humans and uploaded to the programs,
we must decide whether the statute tolerates such
activity by an ATDS. If we read the statute to mean
that, in order for a program to qualify as an ATDS, the
phone numbers it calls must be stored using a randomor sequential-number-generator or produced using a
random- or sequential-number-generator, then we
must conclude that LBD’s programs are not ATDSs,
since the programs called numbers stored in a humangenerated list. But if we read the statute to mean that,
in order for a program to qualify as an ATDS, the
phone numbers it calls must be either stored in any
way or produced using a random- or sequentialnumber-generator, then we must conclude that the
programs here can qualify as ATDSs.
On de novo review, we conclude, for several
reasons, that the second approach to the statute’s
interpretation is correct, and that the programs here
have the first capacity required to be ATDSs—the

App. 12
“capacity . . . to store or produce telephone numbers to
be called, using a random or sequential number
generator[.]”
(a)
To begin with, the second interpretation of the
statute avoids rendering any word in the statute
“surplusage.”16 The potential problem of surplusage in
the TCPA becomes apparent when considering how the
first approach to interpreting it would work. As
discussed above, under the first approach, an ATDS
would need to be able either to “store” or “produce”
numbers using a random- or sequential-numbergenerator. But what this approach cannot explain is
why the statute, in order to achieve its ends, includes
both verbs. Common sense suggests that any number
that is stored using a number-generator is also
produced by the same number-generator; otherwise, it
is not clear what “storing” using a number-generator
could mean.17 It would be odd for Congress to include
See, e.g., Obduskey v. McCarthy & Holthus LLP, 139 S. Ct.
1029, 1037 (2019) (noting that courts “generally presum[e] that
statutes do not contain surplusage” (quoting Arlington Central
School Dist. Bd. of Ed. v. Murphy, 548 U.S. 291, 299, n.1. (2006)
(alteration in original)); see also Corley v. United States, 556 U.S.
303, 314 (2009) (noting that “one of the most basic interpretative
canons” is that a “statute should be construed so that effect is
given to all its provisions, so that no part will be inoperative or
superfluous, void or insignificant” (quoting Hibbs v. Winn, 542
U.S. 88, 101 (2004) (internal quotation marks omitted from
second quotation))).
17
Other courts have come up with unsatisfactory answers to
this surplusage problem. See, e.g., Glasser, 948 F.3d at 1307
16

App. 13
both verbs if, together, they merely created redundancy
in the statute. “Where possible we avoid construing a
statute so as to render a provision mere surplusage[,]”
deferring instead to another interpretation of the
statute if one exists.18
Fortunately, another interpretation of the statute
does exist here. Following this other approach, the
verbs “store” and “produce” take on different meanings,
since “produce” is modified by the clause after the
comma in the statute—“using a random or sequential
number generator”—while “store” is not. Under this
approach, a dialing system can be an ATDS if it can
“store” numbers, even if those numbers are generated
elsewhere, including by a non-random- or nonsequential-number-generator—such as a person. At
the same time, a dialing system can be an ATDS if it
can “produce” numbers “using a random or sequential
number generator[.]” This interpretation, accordingly,
rescues the statute from the problem of surplusage:
each verb is independently significant to the creation
of a comprehensive statute, one that regulates dialing
systems that can store numbers of all kinds or that can
produce numbers in a particular way (randomly or
sequentially).

(noting that there is “some redundancy between store and
produce” because “a device that produces telephone numbers
necessarily stores them,” but tolerating that redundancy
nonetheless).
18
Burrus v. Vegliante, 336 F.3d 82, 91 (2d Cir. 2003).

App. 14
(b)
The purpose and structure of the TCPA further
reinforce our interpretation of the plain language of
the statute. For instance, although the TCPA creates a
general prohibition on ATDS calls and texts, it does
provide several exceptions for when an ATDS may be
appropriately used. Under one such exception, an
ATDS may be used in order “to collect a debt owed to
or guaranteed by the United States[.]”19
But does that mean that an ATDS must reach
such debtors only by calling numbers derived from
random- or sequential-number-generators? That result
is highly unlikely, for it would be highly inefficient—
requiring the Government to call numbers haphazardly until it luckily found someone who owed it
money.
Instead, the only way this exception makes sense
is if an ATDS can make calls or texts using a humangenerated list of phone numbers.20 Indeed, in creating
47 U.S.C. § 227(b)(1)(A)(iii).
The Eleventh Circuit addressed this argument by noting
that the statute also prohibits calls using a prerecorded or
artificial voice—and that these calls are the ones Congress was
permitting when it amended the TCPA to allow debt-collection
calls, not calls from an ATDS. See Glasser, 948 F.3d at 1311-12.
But the language of the statute does not make that distinction.
And, arguably for that reason, the FCC, when promulgating new
rules to explain the debt-collection exception, specifically noted
that the “exception . . . allows the use of an autodialer,
prerecorded-voice, and artificial-voice when making calls[,]” not
just prerecorded- or artificial-voice as the Eleventh Circuit suggests. In re Rules and Regulations Implementing the Telephone
19
20

App. 15
the exception, Congress clearly recognized that ATDSs
can store lists of such numbers—i.e., the numbers of
debtors—so that they can be effectively used in order
to collect Government debts.
Accordingly, if ATDSs are permitted to store lists
of human-generated numbers for the purpose of
making debt-collection calls, and because Congress did
not authorize the use of stored lists solely for that
purpose, it must follow that Congress also expected
and thus permitted ATDSs to be able to store lists of
human-generated numbers generally.
(c)
The aptness of this interpretive approach is also
confirmed by the FCC’s consistent interpretation of
the TCPA,21 including in the rules it promulgated

Consumer Protection Act of 1991, 31 FCC Rcd. 9074, 9116 (2016)
(emphasis added).
21
The TCPA expressly authorizes the FCC to “prescribe
regulations to implement the requirements” of the statute. 47
U.S.C. § 227(b)(2).
We need not decide what degree of deference, if any, we owe
to FCC Orders interpreting the TCPA (a question the Supreme
Court recently raised, but did not answer, in PDR Network, LLC
v. Carlton & Harris Chiropractic, Inc., 139 S. Ct. 2051, 2055
(2019) (asking whether a 2006 Order interpreting the TCPA is
equivalent to a legislative or an interpretive rule)). Instead, we
merely treat the FCC Orders as persuasive authority, providing
further confirmation for the interpretation that, as set forth in
section (a) of this opinion, is commanded by the text of the statute.

App. 16
pursuant to the TCPA in 2003,22 2008,23 and 2012.24
While other courts have claimed that those rules were
invalidated by our decision in King v. Time Warner
Cable Inc.25 and the D.C. Circuit’s decision in ACA
International v. Federal Communications Commission26—the latter of which did, in fact, set aside a
portion of the 2015 FCC rules that had been issued on
ATDSs27—this is not the case. To the contrary, the
2003, 2008, and 2012 Orders, among others, survived
our decision in King and the D.C. Circuit’s decision in
ACA International, and continue to inform our
interpretation of the TCPA today.28

22

In re Rules and Regulations Implementing the Telephone
Consumer Protection Act of 1991, 18 FCC Rcd. 14,014 (2003)
(“2003 Order”).
23
In re Rules and Regulations Implementing the Telephone
Consumer Protection Act of 1991, 23 FCC Rcd. 559 (2008) (“2008
Order”).
24
In re Rules and Regulations Implementing the Telephone
Consumer Protection Act of 1991, 27 FCC Rcd. 15,391 (2012)
(“2012 Order”).
25
894 F.3d 473 (2d Cir. 2018).
26
885 F.3d 687 (D.C. Cir. 2018).
27
In re Rules and Regulations Implementing the Telephone
Consumer Protection Act of 1991, 30 FCC Rcd. 7961 (2015) (“2015
Order”).
28
The District Court in the instant case reached the correct
conclusion on this issue, arguing that King did not invalidate the
pre-2015 Orders. See Duran, 369 F. Supp. 3d at 486-89. Not only
did we not mention the 2003, 2008, and 2012 Orders in our King
decision, but we specifically declined to consider the interpretation of the term “automatic telephone dialing system”—which
those Orders help to clarify. Instead, we limited our analysis in

App. 17
The FCC has long suggested that the TCPA be
interpreted broadly—in such a way that it covers
systems which dial from stored lists—so that the
statute’s prohibitions maintain their general deterrent
effect on telemarketers, even when telemarketers
switch to newer non-random- or non-sequentialnumber-generating technology. For example, in 2003,
the FCC endorsed just such a broad interpretation
when it said that “[w]e believe the purpose of the
requirement that equipment have the ‘capacity to store
or produce telephone numbers to be called’ is to ensure
that the prohibition on autodialed calls not be
circumvented.”29 It made this statement in the context
King to the interpretation of the word “capacity” as it appears in
the TCPA.
Furthermore, while it is true that ACA International noted
that the 2015 Order contained an apparently self-contradictory
explanation of what an ATDS could be, its decision to set aside
the 2015 Order did not invalidate any prior Orders. The problem
with the 2015 Order’s definition of an ATDS, according to the D.C.
Circuit, is that it at once suggested that ATDSs cannot call from
stored lists and that they also can call from stored lists. As the
D.C. Circuit said, either interpretation could work, but not both
interpretations simultaneously. ACA Int’l, 885 F.3d at 702-03.
However, as we discuss below, the earlier Orders do not suffer
from the same internal contradiction, since they are clear that
ATDSs can dial from stored lists. As a result, there is no reason
to think that the D.C. Circuit’s decision to invalidate the 2015
Order on this ground also invalidated those that came before it.
29
2003 Order, at 14,092-93. The FCC stated that to permit
calling from stored lists, just because they were produced by a
human rather than a number-generator, “would lead to an
unintended result. Calls to emergency numbers, health care
facilities, and wireless numbers would be permissible when the
dialing equipment is paired with predictive dialing software and
a database of numbers, but prohibited when the equipment

App. 18
of explaining that the statute applies to “predictive
dialers”—dialing systems that make calls or send texts
from preset “database[s] of numbers” rather than by
generating numbers on their own.30 In so stating, the
FCC made clear that a dialing system that merely
stores a list of numbers, even if it does not store or
produce it using a random- or sequential-numbergenerator, can still qualify as an ATDS.
As the FCC additionally clarified in 2012, the
statutory definition of an ATDS “covers any equipment
that has the specified capacity to generate numbers
and dial them without human intervention regardless
of whether the numbers called are randomly or
sequentially generated or come from calling lists.”31
The FCC’s interpretation of the statute is consistent
with our own, for only an interpretation that permits
an ATDS to store numbers—no matter how
produced—will also allow for the ATDS to dial from
non-random, non-sequential “calling lists.” As the FCC
implied, it does not matter that the lists are produced
by human-generators rather than mechanical numbergenerators. What matters is that the system can store
those numbers and make calls using them.

operates independently of such lists and software packages.” Id.
at 14,092.
30
Id. at 14,091.
31
2012 Order, at 15,392, n.5 (latter emphasis added).

App. 19
(d)
For all of these reasons—to avoid the problem of
surplusage, to effectuate Congress’s intent in passing
the statute as enacted, and to follow the FCC’s longstanding and still valid interpretation of the TCPA—
we hold that an ATDS may call numbers from stored
lists, such as those generated, initially, by humans.
Since there is no factual dispute that the ExpressText
and EZ Texting programs call from just such lists of
numbers, they, too, have the first capacity—the
capacity to “store” numbers—required under the TCPA
to be considered ATDSs.
(2) The “capacity . . . to dial such numbers”
The next question is whether the ExpressText and
EZ Texting programs also have the second capacity
required by the statute to be ATDSs—the “capacity . . .
to dial such numbers.”
The FCC has stated that this capacity exists when
the dialing system can “dial numbers without human
intervention.”32 Indeed, this ability to dial without
human intervention is an ATDSs’ “basic function.”33
But determining how much human intervention is too
much for a system to qualify as an ATDS is not always
easy. Any system—ATDSs included—will always
require some human intervention somewhere along

32
33

2003 Order at 14,092; see also 2012 Order, at 15,392, n.5.
2003 Order at 14,092.

App. 20
the way, even if it is merely to flip a switch that turns
the system on.
LBD argues that the programs at issue can only
dial with a level of human intervention that makes
them non-automatic. Specifically, LBD argues that the
programs are not ATDSs because they require a
human to upload the message to be sent, to determine
the time at which the message gets sent, and to
manually initiate the sending. The District Court
agreed, finding the second factor—that a human
determined the time at which the messages were sent
out—to be dispositive.
Duran argues, to the contrary, that the programs
do not dial with “human intervention,” but do so
automatically. Even though a human manually initiates the text campaign and determines the time at
which the campaign takes place, the actual dialing—
the connecting of one phone to another—occurs
entirely by machine. Therefore, by his interpretation,
the programs are both ATDSs.
We are thus asked to decide how much intervention is tolerable under the statute before an ATDS
becomes a non-ATDS. We conclude that Duran is
correct, and that the programs here are both ATDSs.
(a)
In trying to develop some criteria for what
constitutes too much human intervention, the District
Court decided that the most important factor was

App. 21
whether a human determined the time at which a
dialing system sent out a call or text.34 It derived this
factor, it said, from the FCC’s 2003 Order—the very
one that interpreted the TCPA to cover “predictive
dialers,” which call from stored lists of numbers.
According to that Order, “the principal feature of
predictive dialing software is a timing function,” as
predictive dialers dial “at a rate to ensure that when a
consumer answers the phone, a sales person is
available to take the call.”35 Thus, the District Court
seems to have concluded that the principal feature of
all ATDSs must also be a timing function—or else
predictive dialers would not be considered ATDSs.
Indeed, it stated that “the human-intervention test
turns not on whether the user must send each
individual message, but rather on whether the user
(not the software) determines the time at which the
numbers are dialed.”36
We do not agree that the human-intervention test
turns solely on this timing factor. While it may be true,
as the 2003 Order states, that the key feature of a
predictive dialer is a timing function, the programs
used by LBD here are not predictive dialers, a fact that
the District Court readily acknowledges.37 Therefore,
any controlling reliance on the fact that LBD’s
programs do not automatically determine the time at
34
35
36
37

See Duran, 369 F. Supp. 3d at 490.
2003 Order at 14,091.
Duran, 369 F. Supp. 3d at 490 (emphasis in original).
See id. at 491.

App. 22
which messages are sent out is misplaced. The District
Court, in stressing the importance of the “timing
function” to the human-intervention test, seems to
imply that only predictive dialers can be considered
ATDSs. But the TCPA predates the use of predictive
dialers—which is exactly why the FCC felt compelled
to specify its application to this new technology in
2003. To assume that a key feature of predictive dialers
must be a key feature of all ATDSs, especially when we
know that many early ATDSs did not have the ability
to automatically determine the time at which a call or
text would get sent out, is anachronistic at best.
(b)
There must be some other criterion, then, that
guides the “human intervention” analysis. To locate
one, we look to the statutory text and the FCC’s
commentary, which both specify that an ATDS is
different from a non-ATDS merely because of its
ability to “dial” numbers automatically or, as the FCC
has put it, without human intervention.
But what does it mean to dial? Dialing a phone,
after all, is not the same as it used to be. Although the
verb “to dial” may have originally meant to rotate an
actual dial, it is more commonly used today to refer to
the specific act of “inputting” some numbers to make a
telephone operate, and to connect to another telephone.
By 2014, the Oxford English Dictionary was able to
confirm this common usage, noting that to dial
generally means “[t]o enter (one or more digits or

App. 23
letters) by turning the disc of a telephone dial or (later)
by pushing buttons on a keypad or touch screen to
make a telephone call[.]”38
Merely clicking “send” or an equivalent button in
a text messaging program—much like the programs at
issue here—is not the same thing as dialing a number.
When a person clicks “send” in such a program, he may
be instructing the system to dial the numbers, but he
is not actually dialing the numbers himself. His
activity is one step removed.39
Dial, OXFORD ENGLISH DICTIONARY (3d ed. 2014).
Critics of our approach may suggest that our definition of
“dial” is out of step with common usage. After all, many people
now use so-called smartphones to call or text their “contacts,” and
they often do so without directly “inputting” any specific numbers—but instead by merely selecting a “contact” from a digital
phonebook or by asking Siri or Alexa to accomplish the task.
These critics may suggest that, by relying on an antiquated notion
of “dialing,” we are unintentionally defining all smartphones as
ATDSs, since clicking on a name in a digital phonebook to make
a phone call or send a text message looks the same as clicking
“send” to initiate a text campaign. No inputting of numbers takes
place.
But, in fact, these operations are quite different. Clicking on
a name in a digital phonebook to initiate a call or text is a form of
speed-dialing or constructive dialing that is the functional
equivalent of dialing by inputting numbers. When we save a
contact in a smartphone, we are merely instructing the phone to
replace the 10-digit phone number with a single button (i.e. one
can click on the name “John” to accomplish the same task as
inputting all 10 digits of John’s number). The contact card in a
smartphone is a proxy or a shortcut for a number (just like the
single digit “0” was traditionally a proxy for dialing the operator).
When one clicks on the card, one is constructively dialing the
attached number. Therefore, when one sends a text message
38
39

App. 24
Indeed, if it were otherwise—if merely clicking
“send” on its own amounted to dialing—then it is hard
to imagine how any dialing system could qualify as
automatic. Presumably, when one uses a dialing system, a “send” button or an “initiate phone campaign”
button—or even merely an “on” switch—must be
operated by a human somewhere along the way. Under
LBD’s approach, any such operation might be enough
to remove the dialing system from the ATDS category,
since there would be too much human intervention for
the dialing system to be truly automatic. But this
approach seems to defy Congress’s ultimate purpose in
passing the TCPA, which was to embrace within its
scope those dialing systems which can blast out
messages to thousands of phone numbers at once, at
least cost to the telemarketer.
We thus recognize that clicking “send” or some
similar button—much like flipping an “on” switch—is
not the same thing as dialing, since it is not the actual
or constructive inputting of numbers to make an
individual telephone call or to send an individual text
message. Clicking “send” does not require enough
using a smartphone—which involves clicking on the card and
then clicking a “send” button—one has already accomplished the
dialing.
However, when one clicks on the “send” button in the
programs at issue here, one is not dialing a particular attached
number beforehand or afterwards. Simply put, the “send” button,
unlike a contact card, is not a short-cut for dialing a particular
person. Rather, clicking “send” is accomplishing a different task
altogether: it is telling the ATDS to go ahead and dial a separate
list of contacts, often numbering in the hundreds or thousands.

App. 25
human intervention to turn an automatic dialing
system into a non-automatic one.
Accordingly, since the programs here required
only a human to click “send” or some similar button in
order to initiate a text campaign, we conclude that the
programs did not require human intervention in order
to dial. Therefore, LBD’s programs have the second
capacity necessary to be considered ATDSs. They both
can dial numbers on their own—which is to say,
automatically.
III.

CONCLUSION

To summarize, we hold as follows:
(1) The EZ-Texting and ExpressText programs
have the first “capacity” necessary to qualify
as automatic telephone dialing systems, or
ATDSs, because they store lists of numbers, as
is permitted under the Telephone Consumer
Protection Act;
(2) The EZ-Texting and ExpressText programs
have the second “capacity” necessary to qualify as automatic telephone dialing systems, or
ATDSs, because they dial those stored numbers without human intervention, as is required by the Telephone Consumer Protection
Act;
(3) Having both necessary “capacities” within the
meaning of the Telephone Consumer Protection Act, the EZ-Texting and ExpressText

App. 26
programs are automatic telephone dialing
systems, or ATDSs, under the statute.
Accordingly, we VACATE the District Court’s
judgment and REMAND the cause for further proceedings consistent with this opinion, including the
calculation of such penalties as may be appropriate in
the circumstances presented.

App. 27
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
RADAMES DURAN,
on behalf of himself and all
others similarly situated,

17-cv-6331 (ARR)
(CLP)

Plaintiff,
v.
LA BOOM DISCO, INC.,

Opinion & Order
(Filed Feb. 25, 2019)

Defendant.
ROSS, United States District Judge:
Radames Duran (“plaintiff ”) brings this action
against La Boom Disco, Inc. (“defendant”) for alleged
violations of the Telephone Consumer Protection Act
(TCPA), 47 U.S.C. § 227. Plaintiff claims that defendant, a nightclub in Queens, N.Y., sent him numerous
text messages over a two-year period in violation of the
TCPA. Plaintiff is seeking summary judgment on the
issue of defendant’s liability. Because I find that
defendant’s communications do not fall under the
TCPA as a matter of law, plaintiff ’s motion for summary judgment is denied. Further, since the parties
have fully briefed the issue of whether defendant’s text
messages are covered by the TCPA, I am sua sponte
granting summary judgment in favor of defendant.

App. 28
BACKGROUND
On March 19, 2016, plaintiff texted defendant the
word “TROPICAL” in response to an advertisement
defendant had placed on Facebook. See Pl.’s 56.1 ¶ 8,
ECF No. 20-1; Def.’s 56.1 ¶ 8, ECF No. 39; Pl.’s Br. 1, 8,
ECF No. 21.1 Plaintiff texted defendant in order to
receive free admission to a particular event taking
place at defendant’s nightclub. See Pl.’s 56.1 ¶ 8; Def.’s
56.1 ¶ 8; Pl.’s Br. 1. After plaintiff texted defendant, he
received the following response:
You Been Added To The Saturday Nite Guest
List @ LaBoomNY.com
FREE ADMISSION til 12am w/txt
Must be 21 +/Valid for 1
XXX-XXX-XXXX
Reply STOP Tropical 2 Optout
Lee Decl. in Supp. Pl.’s Mot. Summ. J. (“Lee Decl.”) Ex.
B (“Def.’s Records”), at 12-13, ECF No. 24-2. Plaintiff ’s
text gained him free admission to an event, as well as
added him to defendant’s mass text list for Saturday
night events. See id.; see also Pl.’s Br. 8; Lee Suppl.
Defendant’s records and memorandum of law indicate that
plaintiff texted defendant on March 19, 2016. See Lee Decl. in
Supp. Pl.’s Mot. Summ. J. Ex. B, at 12-13, ECF No. 24-2; Def.’s
Br. 5-9, ECF No. 41. Although plaintiff recalls that he texted
defendant in October 2015, plaintiff accepts defendant’s date of
March 19, 2016, for the purposes of this motion. See Pl.’s Br. 8. In
defendant’s response to plaintiff ’s 56.1 statement, defendant
refers to the date of plaintiff ’s text as March 19, 2017. See Def.’s
56.1 ¶¶ 2, 8 (emphasis added). Because the remainder of the
record asserts a date of March 19, 2016, I assume the “2017” is a
typographical error.
1

App. 29
Decl. in Supp. Pl.’s Mot. Summ. J. (“Lee Suppl. Decl.”)
Ex. B (“Najera Dep.”), at 16:2-17:10; 19:9-20:2, ECF No.
44-2. Over the next couple of years, plaintiff received
over 100 text messages from defendant. See Pl.’s Br. 89; Def.’s Br. 9; Pl.’s 56.1 ¶¶ 2-3; Def.’s 56.1 ¶ 3.2 The text
messages advertised events at defendant’s nightclub
and encouraged plaintiff to buy tickets. See Lee Decl.
Ex. A (“Def.’s Texts”), ECF No. 24-1; Najera Dep. 19:2020:2.3 Some messages contained opt-out instructions,
see, e.g., Def.’s Texts 8-22, while others did not, see, e.g.,
id. at 1-8.4 At any point, if plaintiff had replied “stop,”
“cancel,” or “unsubscribe,” he would have been removed
from defendant’s mass text list. See Najera Dep. 39:27; Patel Aff. ¶ 22, ECF No. 28-1.
Defendant texted plaintiff using the ExpressText
and EZ Texting programs (collectively, “the programs”).
Plaintiff contends that he received 296 texts. See Pl.’s Br.
8-9; Pl.’s 56.1 ¶¶ 2-3. Defendant asserts that it sent only 121
texts. See Def.’s Br. 9; Def.’s 56.1 ¶ 3. The record does not provide
a definitive answer. While this dispute would be material if
defendant were found liable, because I conclude that defendant is
not liable as a matter of law, the number of texts is not material.
3
Examples of text messages plaintiff received include:
“Saturday Oct 28th Performing LIVE TEGO Calderon, FATJoe,
TITO El Bambino, NORIEL, LITO, DjProStyle, DjLobo/Buy
tickets now: XXX-XXX-XXXX bit.ly/RGHorror-Fest” and “2nite
Celebrity Bday Party @LaBoomNY 4 djSussone MusicBy Prostyle
Dj Kazzanova Dj Envy COME CELEBRATE YOUR BIRTHDAY!
FREE ADMISSION B4 12am w/txt XXX-XXX-XXXX.” Def.’s
Texts 1-2.
4
Plaintiff is able to reproduce only 50 of the text messages
he received for the court. See Pl.’s Br. 5; Def.’s Texts. I assume
that the 50 text messages are representative of the remaining text
messages, because neither party argues to the contrary.
2

App. 30
See Pl.’s 56.1 ¶ 5; Def.’s 56.1 ¶ 5; see also Def.’s Br. 9
(conceding that it sent plaintiff 108 texts using
ExpressText and 13 texts using EZ Texting).5
ExpressText COO Ashish Patel testified that “numbers
can get uploaded to the [ExpressText] system either
through the client’s direct upload of phone numbers, or
the client can advertise short codes that endsubscribers can text to in order to opt in and have their
numbers added to the client’s database.” Lee Suppl.
Decl. Ex. E (“Patel Dep.”), Errata Sheet at 1, ECF No.
44-5. In this case, plaintiff ’s number was automatically
added to defendant’s database through the EZ Texting
program when plaintiff texted “TROPICAL” to
defendant. See Def.’s Records 12; Najera Dep. 16:15-19;
see also Najera Dep. 36:2-12 (noting that when
individuals are added to the database, they receive an
automatic text message notifying them that they have
been added). Once numbers are in a user’s database,
the user can organize the numbers into groups and
send mass text messages to the groups. See Pl.’s Br. 1416; see also Patel Dep. 10:10-12 (“[The users] create
their own content for the text message, select the
groups that they prefer to send to and then send their
message.”). The ExpressText platform allows users to
send the same message to thousands of people with
one click. See Patel Dep. 11:16-20; see also Pl.’s Br. 15.
Users can send the message immediately or schedule
a future time for the message to go out. See Pl.’s Br. 15;
see also Najera Dep. 40:7-11 (“I upload [the message]
Defendant will be referred to as both the “client” and the
“user” of the programs.
5

App. 31
to the system . . . [and] tell them when . . . I want it to
go out.”). Before sending a message, users must certify
that they are in compliance with the TCPA. See Patel
Dep., Errata Sheet at 2; Pl.’s Reply 6, ECF No. 43. The
ExpressText and EZ Texting programs function in
substantially the same way. See Pl.’s Br. 16; see also
Ramos v. Hopele of Fort Lauderdale, LLC, 334
F. Supp. 3d 1262, 1275 (S.D. Fla. 2018) (“The EZTexting system cannot send a text without a person
physically inputting numbers, drafting a message,
selecting recipients, choosing a date and time to send
the message, and manually hitting a ‘send’ button.”),
appeal docketed, No. 18-14456 (11th Cir. Oct. 22, 2018).
On October 31, 2017, plaintiff filed a class-action
complaint alleging that he received “unsolicited and
unconsented-to” text messages from defendant in
violation of the TCPA. Compl. ¶ 1, ECF No. 1. Plaintiff
filed an amended complaint on March 8, 2018,
containing the same allegation. See Am. Compl. ¶ 1,
ECF No. 13. On May 15, 2018, plaintiff moved for
summary judgment on the issue of defendant’s liability
under the TCPA. See Mot. Summ. J., ECF No. 20. On
May 17, 2018, Magistrate Judge Pollack issued an
order staying the briefing schedule on plaintiff ’s
motion until discovery in the case was complete. See
Electronic Order, May 17, 2018. The stay was lifted on
September 18, 2018, see Scheduling Order, ECF No. 38,
and defendant submitted its opposition to plaintiff ’s
summary-judgment motion on October 16, 2018, see
Def.’s Br. For the following reasons, plaintiff ’s motion

App. 32
for summary judgment is denied, and summary judgment in favor of defendant is granted sua sponte.
STANDARD OF REVIEW
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). The
function of the court is not to resolve disputed factual
issues but to determine whether there is a genuine
issue to be tried. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 249, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986).
“While genuineness runs to whether disputed factual
issues can reasonably be resolved in favor of either
party, materiality runs to whether the dispute matters,
i.e., whether it concerns facts that can affect the outcome under the applicable substantive law.” McPherson
v. Coombe, 174 F.3d 276, 280 (2d Cir. 1999) (internal
quotation marks and ellipses omitted) (quoting Graham v. Henderson, 89 F.3d 75, 79 (2d Cir. 1996)).
The moving party carries the burden of proving
that there is no genuine dispute respecting any
material fact and “may obtain summary judgment by
showing that little or no evidence may be found in
support of the nonmoving party’s case.” Gallo v.
Prudential Residential Servs., Ltd. P’ship, 22 F.3d
1219, 1223-24 (2d Cir. 1994). Once this burden is met,
in order to avoid the entry of summary judgment, the
nonmoving party “must come forward with specific
facts showing that there is a genuine issue for trial.”

App. 33
LaBounty v. Coughlin, 137 F.3d 68, 73 (2d Cir. 1998)
(citing Rexnord Holdings, Inc. v. Bidermann, 21 F.3d
522, 525-26 (2d Cir. 1994)). In reviewing the record before it, “the court is required to resolve all ambiguities
and draw all permissible factual inferences in favor of
the party against whom summary judgment is sought.”
McLee v. Chrysler Corp., 109 F.3d 130, 134 (2d Cir.
1997).
“When one party has moved for summary judgment, ‘a court may grant summary judgment in favor
of the non-moving party provided that [the moving]
party has had a full and fair opportunity to meet the
proposition that there is no genuine issue of material
fact to be tried.’ ” Weissman v. Collecto, Inc., No. 17-CV4402 (PKC) (LB), 2019 WL 254035, at *3 (E.D.N.Y. Jan.
17, 2019) (quoting Radut v. State St. Bank & Tr. Co.,
No. 03 Civ. 7663(SAS), 2004 WL 2480467, at *2
(S.D.N.Y. Nov. 4, 2004)). Although the Second Circuit
has advised district courts to give “clear and express
notice” before granting summary judgment in favor of
the nonmoving party sua sponte, notice is not required
if the moving party will not be “procedurally
prejudiced” by the lack of notice. Bridgeway Corp. v.
Citibank, 201 F.3d 134, 139 (2d Cir. 2000). “A party is
procedurally prejudiced if it is surprised by the district
court’s action and that surprise results in the party’s
failure to present evidence in support of its position.”
Id. The risk of procedural prejudice “greatly diminishe[s]” when the court’s decision “is based on issues
identical to those raised by the moving party” and “the
moving party speaks to those issues in the course of

App. 34
the district court proceedings.” Id. at 140 (quoting
Coach Leatherware Co. v. Ann-Taylor, Inc., 933 F.2d
162, 167 (2d Cir. 1991)); see also Obsession Sports Bar
& Grill, Inc. v. City of Rochester, 235 F. Supp. 3d 461,
466 (W.D.N.Y. 2017) (“Movant has ‘sufficient notice’ . . .
where the issue upon which the court grants summary
judgment for the non-movant is the same issue that
the movant briefed in support of its unsuccessful
motion for summary judgment.” (citing Geraczynski v.
Nat’l R.R. Passenger Corp., Civil Action No. 11-6385
(SRC), 2015 WL 4623466, at *7 (D.N.J. July 31, 2015))),
aff ’d, 706 F. App’x 53 (2d Cir. 2017). Further, when it is
clear from the record that the moving party has
submitted all of the evidentiary materials it might
submit in response to a motion for summary judgment,
“a sua sponte grant of summary judgment against that
party may be appropriate if those materials show that
no material dispute of fact exists and that the other
party is entitled to judgment as a matter of law.”
Bridgeway Corp., 201 F.3d at 140 (citing Ramsey v.
Coughlin, 94 F.3d 71, 74 (2d Cir. 1996)); see also id.
(“[W]hen the moving party cannot plausibly claim that,
had it been given notice of the district court’s consideration of summary judgment against it, it would
have brought forth additional evidence, the district
court’s failure to give notice is harmless. . . .”).

App. 35
DISCUSSION
The TCPA makes it:
unlawful for any person . . . (A) to make any
call (other than a call made for emergency
purposes or made with the prior express
consent of the called party) using any
automatic telephone dialing system . . . (iii) to
any . . . cellular telephone . . . unless such call
is made solely to collect a debt owed to or
guaranteed by the United States.
47 U.S.C. § 227(b)(1). The statute defines an “automatic
telephone dialing system” (“ATDS” or “autodialer”) as
“equipment which has the capacity—(A) to store or
produce telephone numbers to be called, using a
random or sequential number generator; and (B) to
dial such numbers.” Id. § 227(a)(1). As the statute
makes clear, there are three exceptions to the general
prohibition on autodialer calls: (1) a call made for
emergency purposes, (2) a call made with the prior
express consent of the called party, and (3) a call made
to collect government debts. Id. § 227(b)(1)(A). The
TCPA provides for a private right of action allowing a
plaintiff to recover $ 500 for each violation or $ 1500 if
the violation is willful or knowing. Id. § 227(b)(3).
The Federal Communications Commission (“FCC”)
is responsible for interpreting the TCPA’s reach. In
2003, the FCC issued an order clarifying that the
TCPA’s prohibition on autodialer “calls” encompasses
both voice calls and text messages. See Rules and
Regulations Implementing the Telephone Consumer
Protection Act of 1991, 18 FCC Rcd. 14,014 ¶ 165

App. 36
(2003) [hereinafter 2003 Order].6 Further, in 2015, the
FCC explained that the term “called party” “include[s]
. . . individuals who might not be the subscriber, but
who, due to their relationship to the subscriber, are the
number’s customary user and can provide prior
express consent for the call.” Rules and Regulations
Implementing the Telephone Consumer Protection Act
of 1991, 30 FCC Rcd. 7961 ¶ 75 (2015) [hereinafter
2015 Order]. Because plaintiff is the “non-subscriber
customary user of the mobile number” defendant
texted, Pl.’s 56.1 ¶ 4,7 defendant is liable to plaintiff for
violating the TCPA unless (1) defendant did not use an
ATDS or (2) one of three enumerated exceptions
applies. The exception at issue in this case is consent.
See also Def.’s Br. 4-5 (identifying the number of texts,
whether defendant utilized an ATDS, and whether
plaintiff consented to defendant’s texts as the sole
issues of material fact). I will first address whether
plaintiff consented to defendant’s text messages, and I
will then turn to whether the programs at issue meet
the statutory definition of an ATDS.
The parties do not dispute that defendant’s text messages
constitute “calls” under the TCPA.
7
Plaintiff claims that his phone number is part of a family
plan subscribed to by his mother and that he was the “nonsubscriber customary user” of the phone number defendant
texted. See Pl.’s 56.1 ¶ 4. In response, defendant “[a]dmits that
the Plaintiff is a non-customary user on his Mothers Metro PCS
account, during the times alleged.” Def.’s 56.1 ¶ 4 (emphasis
added). Because of defendant’s admission and the lack of a
dispute over this issue in the record, I assume “non-customary”
was an error and that defendant meant “non-subscriber
customary user.”
6

App. 37
I.

Defendant cannot avoid TCPA liability on
the ground that plaintiff consented to the
text messages.

In 2012, the FCC issued a rule that “established a
two-tier system of consent, with the two tiers being
‘prior express consent’ and ‘prior express written
consent.’ ” Rotberg v. Jos. A. Bank Clothiers, Inc., 345
F. Supp. 3d 466, 477 (S.D.N.Y. 2018) (quoting 47 C.F.R.
§ 64.1200(a)). While calls that do not contain advertisements or constitute telemarketing require only the
“prior express consent” of the called party, 47 C.F.R.
§ 64.1200(a)(1), callers seeking to use an ATDS to make
a “call that includes or introduces an advertisement or
constitutes telemarketing” must obtain “prior express
written consent,” id. § 64.1200(a)(2); see also Van
Patten v. Vertical Fitness Grp., 847 F.3d 1037, 1045 (9th
Cir. 2017); Rotberg, 345 F. Supp. 3d at 477; Zani v. Rite
Aid Headquarters Corp., 246 F. Supp. 3d 835, 843-44
(S.D.N.Y. 2017), aff ’d, 725 F. App’x 41 (2d Cir. 2018).
Prior express written consent requires:
[A]n agreement, in writing, bearing the signature of the person called that clearly
authorizes the seller to deliver or cause to be
delivered to the person called advertisements
or telemarketing messages using an automatic telephone dialing system or an artificial
or prerecorded voice, and the telephone
number to which the signatory authorizes
such advertisements or telemarketing messages to be delivered.

App. 38
47 C.F.R. § 64.1200(f )(8). The FCC defines “advertisement” as “any material advertising the commercial
availability or quality of any property, goods, or
services,” id. § 64.1200(f )(1), and “telemarketing” as
“the initiation of a telephone call or message for the
purpose of encouraging the purchase or rental of, or
investment in, property, goods, or services, which is
transmitted to any person,” id. § 64.1200(f )(12). The
calling party bears the burden of demonstrating prior
express written consent. See Van Patten, 847 F.3d at
1044; Rules and Regulations Implementing the
Telephone Consumer Protection Act of 1991, 27 FCC
Rcd. 1830 ¶ 33 (2012).
Defendant appears to argue that the “prior express consent” standard governs this case and that
defendant received such consent when plaintiff
provided his phone number to defendant. See Def.’s Br.
14-16. Defendant relies on Van Patten to support its
argument; however, Van Patten is not applicable
because the alleged conduct in Van Patten took place
before the 2012 rule requiring prior express written
consent for advertising and telemarketing calls took
effect. See Van Patten, 847 F.3d at 1045 (“Because the
alleged conduct here took place before the rule took
effect . . . , Defendants need not have obtained prior
express written consent from [plaintiff ].”). While
defendant is correct that giving one’s number to a
caller satisfies the “prior express consent” standard for
non-advertising and non-telemarketing calls, see
Rotberg, 345 F. Supp. 3d at 477-78, the only text in this
case that was not an advertising or telemarketing text

App. 39
was defendant’s initial text to plaintiff granting him
free admission to a particular event. See Def.’s Records
12-13. The subsequent texts—which advertised events
at defendant’s nightclub and encouraged plaintiff to
purchase tickets (see Def.’s Texts)—clearly fall under
the FCC’s definition of “advertisement” or “telemarketing.” Thus, while plaintiff ’s act of giving his number
to defendant constituted sufficient consent to receive
the initial text, this action did not grant defendant
permission to send subsequent advertising and
telemarketing texts. See, e.g., Larson v. Harman Mgmt.
Corp., No. 1:16-cv-00219-DAD-SKO, 2016 WL 6298528,
at *1, *3-4 (E.D. Cal. Oct. 27, 2016) (rejecting the
argument that by sending the text “BURGER” to
defendant to receive a free burger, plaintiff provided
“prior express written consent” to receive subsequent
advertising and telemarketing texts). Here, defendant
has not met its burden of demonstrating prior express
written consent for the advertising and telemarketing
texts. Thus, defendant cannot avoid liability on a
consent theory.8

To the extent that defendant argues that plaintiff provided
adequate consent by not opting out of receiving defendant’s texts,
see, e.g., Def.’s Br. 6, this argument fails. See, e.g., Larson, 2016
WL 6298528, at *1, *4-5 (reasoning that advertising and
telemarketing messages with opt-out options still require “prior
express written consent”).
8

App. 40
II.

ExpressText and EZ Texting do not qualify
as autodialers as a matter of law, and
summary judgment against plaintiff is
therefore appropriate.

The TCPA defines an ATDS as “equipment which
has the capacity—(A) to store or produce telephone
numbers to be called, using a random or sequential
number generator; and (B) to dial such numbers.” 47
U.S.C. § 227(a)(1). The question of what qualifies as an
ATDS “has generated substantial questions over the
years.” King v. Time Warner Cable Inc., 894 F.3d 473,
481 (2d Cir. 2018) (quoting ACA Int’l v. FCC, 885 F.3d
687, 701 (D.C. Cir. 2018)). The FCC and the courts have
attempted to clarify the definition of an ATDS through
various administrative orders and judicial opinions,
but the definition remains unclear. I find it useful to
provide an overview of the relevant orders and
opinions in order to arrive at my understanding of the
law. I ultimately conclude that the pre-2015 FCC
guidance on autodialer functions remains good law,
and that under this guidance, the ExpressText and EZ
Texting programs do not qualify as autodialers.
A. Autodialer definition
i.

The 2003 FCC Order

In 2003, the FCC addressed whether “predictive
dialers” are autodialers. See 2003 Order, supra, ¶¶ 12933. “A predictive dialer is an automated dialing system
that uses a complex set of algorithms to automatically
dial consumers’ telephone numbers in a manner that

App. 41
‘predicts’ the time when a consumer will answer the
phone and a telemarketer will be available to take the
call.” Id. ¶ 8 n.31; see also id. ¶ 131 (“[A] predictive
dialer is equipment that dials numbers and, when
certain computer software is attached, also assists
telemarketers in predicting when a sales agent will be
available to take calls.”). The FCC noted that “in most
cases, telemarketers program the numbers to be called
into the equipment.” Id. ¶ 131. Members of the telemarketing industry argued that predictive dialers do
not qualify as autodialers because they do not dial
“randomly or sequentially,” i.e., (1) they dial from a
database of numbers, and (2) they dial “in a manner
that maximizes efficiencies for call centers.” Id. ¶ 130.
The FCC rejected the industry members’ argument and held that predictive dialers do fall under the
statutory definition of an ATDS. Regarding the use of
a database of numbers, the FCC wrote:
In the past, telemarketers may have used
dialing equipment to create and dial 10-digit
telephone numbers arbitrarily. As one
commenter points out, the evolution of the
teleservices industry has progressed to the
point where using lists of numbers is far more
cost effective. . . .
. . . [T]o exclude . . . equipment that use[s]
predictive dialing software from the definition
of “automated telephone dialing equipment”
simply because it relies on a given set of
numbers would lead to an unintended result.

App. 42
Id. ¶¶ 132-33. Thus, the FCC reasoned, while early
autodialing equipment created and dialed numbers on
its own, technology has developed such that equipment
that relies on lists of numbers is more effective, and
technological advances should not enable telemarketers to avoid TCPA liability. In response to the claim
that predictive dialers are not autodialers because
they do not dial numbers arbitrarily, the FCC noted
that “the basic function of [early autodialing equipment and predictive dialers] . . . has not changed—the
capacity to dial numbers without human intervention.”
Id. ¶ 132. In other words, there is no substantive
difference between predictive-dialing software and
software that dials numbers randomly or sequentially,
because both dial numbers without human intervention. See also id. ¶ 131 n.432 (“Some dialers are
capable of being programmed for sequential or random
dialing; some are not” (quoting industry comments)).
I interpret the 2003 Order as holding that a piece
of equipment can constitute an autodialer if it relies on
a list of numbers, so long as the equipment also has the
capacity to dial those numbers without human
intervention. This reading comports with the FCC’s
implication that predictive dialers qualify as autodialers because of the pairing between the database of
numbers and the predictive-dialing software, i.e., the
component of the equipment that operates without
human intervention. See, e.g., id. ¶ 131 (“[A] predictive
dialer is equipment that dials numbers and, when
certain computer software is attached, also assists
telemarketers in predicting when a sales agent will be

App. 43
available to take calls. The hardware, when paired
with certain software, has the capacity to store or
produce numbers and dial those numbers at random,
in sequential order, or from a database of numbers.”
(emphases added) (footnotes omitted)); id. ¶ 133 (“[T]o
exclude . . . equipment that use[s] predictive dialing
software from the definition of ‘automated telephone
dialing equipment’ simply because it relies on a given
set of numbers would lead to an unintended result.”
(emphasis added)). The FCC’s subsequent orders, which
focus on the absence of human intervention as the
defining characteristic of an autodialer, lend further
support to my interpretation of the 2003 Order. See
Rules and Regulations Implementing the Telephone
Consumer Protection Act of 1991, 23 FCC Rcd. 559
¶¶ 12-13 (2008) [hereinafter 2008 Order] (rejecting the
argument “that a predictive dialer meets the definition
of autodialer only when it randomly or sequentially
generates telephone numbers, not when it dials numbers from customer telephone lists,” and noting that it
had already found “that the evolution of the teleservices industry had progressed to the point where
dialing lists of numbers was far more cost effective, but
that the basic function of such dialing equipment, had
not changed—the capacity to dial numbers without
human intervention”); Rules and Regulations Implementing the Telephone Consumer Protection Act of
1991, 27 FCC Rcd. 15,391 ¶ 2 n.5 (2012) [hereinafter
2012 Order] (“The Commission has emphasized that
[the definition of an ATDS] covers any equipment that
has the specified capacity to generate numbers and
dial them without human intervention regardless of

App. 44
whether the numbers called are randomly or
sequentially generated or come from calling lists.”). A
number of district courts agree that under the FCC’s
2003, 2008, and 2012 Orders, a device that relies on a
database of numbers can qualify as an ATDS and that
the critical feature of an ATDS is the capacity to dial
those numbers without human intervention. See
Ramos, 334 F. Supp. 3d at 1270, 1272-73 (collecting
cases).
ii.

The 2015 FCC Order and ACA
International

In 2015, the FCC again addressed the statutory
definition of an autodialer. See 2015 Order, supra,
¶¶ 10-24. The FCC mainly focused on the meaning of
the word “capacity” under the statute. See 47 U.S.C.
§ 227(a)(1) (defining an ATDS as a device that has “the
capacity—(A) to store or produce telephone numbers to
be called, using a random or sequential number
generator; and (B) to dial such numbers” (emphasis
added)). Adopting a broad interpretation, the FCC held
that the TCPA’s reach extends to devices with the
“potential ability” to function as an autodialer. 2015
Order, supra, ¶ 19; see also id. ¶ 15 (noting that “the
TCPA’s use of ‘capacity’ does not exempt equipment
that lacks the ‘present ability’ to [function as an
autodialer]”). In ACA International, the D.C. Circuit
invalidated several aspects of the 2015 Order, including
the FCC’s definition of “capacity.” See 885 F.3d at 695700. The court found that extending TCPA liability to
equipment with the future capacity to meet the

App. 45
definition of an autodialer “invites the conclusion that
all smartphones are autodialers.” Id. at 699. Thus, the
court held, the FCC’s “interpretation of the statute . . .
is an unreasonably, and impermissibly, expansive one.”
Id. at 700.
The D.C. Circuit also struck down the portion of
the 2015 Order describing the requisite functions of an
autodialer, reasoning that the FCC offered competing
explanations that “fail[ed] to satisfy the requirement
of reasoned decisionmaking.” Id. at 702-03. The court
noted that by reaffirming its 2003 Order, the FCC
appeared to confirm its prior determination that
“equipment can meet the statutory definition [of an
autodialer] . . . even if it has no capacity itself to
generate random or sequential numbers (and instead
can only dial from an externally supplied set of
numbers).” Id. at 702 (citing 2015 Order, supra, ¶¶ 1214). The court also found, however, that the language
of the 2015 Order implied that an ATDS must have the
capacity to generate random or sequential numbers on
its own. See id. at 701-02. The 2015 Order twice states
that autodialer equipment must have the capacity to
“dial random or sequential numbers.” See id. (citing
2015 Order, supra, ¶¶ 10, 15). The D.C. Circuit determined that “it is clear from context that the [2015]
order treats the ability to ‘dial random or sequential
numbers’ as the ability to generate and then dial
‘random or sequential numbers.’ ” Id. at 702. The court
explained why:
[T]he [2015] ruling distinguishes between use
of equipment to “dial random or sequential

App. 46
numbers” and use of equipment to “call[ ] a set
list of consumers.” Anytime phone numbers
are dialed from a set list, the database of
numbers must be called in some order—either
in a random or some other sequence. As a
result, the ruling’s reference to “dialing random or sequential numbers” cannot simply
mean dialing from a set list of numbers in
random or other sequential order: if that were
so, there would be no difference between
“dialing random or sequential numbers” and
“dialing a set list of numbers,” even though
the ruling draws a divide between the two. It
follows that the ruling’s reference to “dialing
random or sequential numbers” means
generating those numbers and then dialing
them.
Id. (citations omitted) (first quoting 2015 Order, supra,
¶ 10; then citing 2015 Order, supra, ¶¶ 13-14). The
court went on to state that the 2003 Order “reinforce[s]
th[e] understanding” that “the [2015 Order’s] reference
to ‘dialing random or sequential numbers’ means
generating those numbers and then dialing them,”
because in the 2003 Order, the FCC also drew a
distinction between “calling from a list of numbers”
and “ ‘creating and dialing’ a random or arbitrary list
of numbers.” Id. (“In its 2003 ruling addressing predictive dialers, the Commission observed that, ‘[i]n the
past, telemarketers may have used dialing equipment
to create and dial 10-digit telephone numbers
arbitrarily.’ But the industry had ‘progressed to the
point where’ it had become ‘far more cost effective’
instead to ‘us[e] lists of numbers.’ ” (quoting 2003

App. 47
Order, supra, ¶ 132)). Thus, the D.C. Circuit concluded,
because the FCC “espouse[d] . . . competing interpretations in the same order” regarding whether a
device must be able to generate random or sequential
numbers to qualify as an autodialer, the 2015 Order
was not “consistent with reasoned decisionmaking.” Id.
at 703.
The D.C. Circuit also found that the 2015 Order
included a contradictory discussion of the “human
intervention” factor. See id. at 703 (noting that the FCC
reiterated its holding that the “ ‘basic function’ of an
autodialer is the ability to ‘dial numbers without
human intervention’ ” but also declined to “clarify[ ]
that a dialer is not an autodialer unless it has the
capacity to dial numbers without human intervention”
(quoting 2015 Order, supra, ¶¶ 14, 17, 20)). Thus, the
court concluded: “The order’s lack of clarity about
which functions qualify a device as an autodialer
compounds the unreasonableness of the Commission’s
expansive understanding of when a device has the
‘capacity’ to perform the necessary functions. We must
therefore set aside the Commission’s treatment of
those matters.” Id.
iii. The Impact of ACA International
In King v. Time Warner Cable, the Second Circuit
examined the D.C. Circuit’s decision in ACA International and concluded, “[a]lthough we are not bound
by the D.C. Circuit’s interpretation of the statute, we
are persuaded by its demonstration that interpreting

App. 48
‘capacity’ to include a device’s ‘potential functionalities’
after some modifications extends the statute too far.”
King, 894 F.3d at 477. Thus, the Second Circuit held
“that the term ‘capacity’ is best understood to refer to
the functions a device is currently able to perform,
whether or not those functions were actually in use for
the offending call, rather than to devices that would
have that ability only after modifications.” Id.
Regarding the functions a device must possess in order
to qualify as an autodialer, the Second Circuit declined
to weigh in and deferred to the district courts. See id.
at 481 (“[T]he D.C. Circuit noted that the role of the
phrase, ‘using a random or sequential number generator,’ has generated substantial questions over the
years, which the FCC’s 2015 Order failed to conclusively resolve. To the extent that applying the
narrower definition of ‘capacity’ that we adopt today
necessitates that those complicated questions be
answered in the present case, we leave it to the district
court to address them in the first instance.” (quotation
marks and citation omitted)); id. at 481-82 (noting that
“the FCC expressly declined to adopt [a humaninvolvement] standard in its 2015 Order” and
“ventur[ing] no opinion on whether . . . lack of human
involvement is a consideration relevant to [plaintiff ’s]
claims”); see also Rotberg, 345 F. Supp. 3d at 477 n.3
(declining to resolve the question of whether an
autodialer must be able to generate random numbers
to be dialed at the motion-to-dismiss stage and noting
that the King court “recognized this is a ‘complicated

App. 49
question[ ]’ and expressly declined to answer it”
(quoting King, 894 F.3d at 481)).9
Currently, federal courts are in disagreement over
whether ACA International’s invalidation of the 2015
Order also “invalidated the analogous portions of the
2003 and 2008 Orders concerning predictive dialers.”
Richardson v. Verde Energy USA, Inc., 354 F. Supp. 3d
639, 646 (E.D. Pa. 2018); see also id. at 646 (collecting
cases and noting that a majority of lower courts have
held “that the earlier Orders remain binding on federal
courts”); Pl.’s Reply 12-14 (collecting cases upholding
the validity of the 2003 and 2008 Orders). A number of
courts have claimed that the Second Circuit, in King,
“adopted th[e] position” that “by invalidating the 2015
In King, the Second Circuit remanded the case to the
district court because the district court relied on the incorrect
definition of “capacity” in granting partial summary judgment for
plaintiff. See King, 894 F.3d at 481. The case subsequently
settled. See Notice of Settlement, King v. Time Warner Cable, Inc.,
No. 14-cv-2018 (AKH) (S.D.N.Y. Sept. 13, 2018). In remanding the
case, the Second Circuit wrote:
The record does not permit us to conclude, as a matter
of law, that Time Warner’s system has the requisite
‘capacity,’ as we understand it, to meet the definition of
an autodialer regulated by the TCPA. Nor does it
permit us to conclude the opposite. On the present
record, we do not know whether Time Warner’s system
had the ability to perform the functions of an ATDS
when it made the calls to King, nor what kinds of
modifications might be required to permit it to do so.
King, 894 F.3d at 481. While the court concluded that it did not
have enough information to determine whether the system at
issue met the statutory definition of an ATDS, it also declined to
clarify what functions a system must perform in order to meet
this definition. See id.
9

App. 50
Order, the D.C. Circuit necessarily invalidated the
2003 and 2008 Orders as well.” Richardson, 354
F. Supp. 3d at 646; see also Peralta v. Rack Room Shoes,
Inc., No. 18-3738, 2018 WL 6331798, at *5 (E.D. La.
Dec. 3, 2018); Adams v. Ocwen Loan Servicing, LLC,
No. 18-81028-CIV-DIMITROULEAS, 366 F. Supp. 3d
1350, 1354-55, 2018 WL 6488062, at *3 (S.D. Fla. Oct.
29, 2018); Grogan v. Aaron’s Inc., No. 1:18-CV-2821-AT,
2018 WL 6040195, at *5 (N.D. Ga. Oct. 26, 2018). I
respectfully disagree with this interpretation of King.
The King court wrote:
[T]he FCC’s 2015 Order . . . broadly construed
the term “capacity”. . . . In the wake of ACA
International, which invalidated that Order
and thereby removed any deference we might
owe to the views the FCC expressed in it, we
must decide independently whether the
district court’s broad understanding of the
“capacity” a device must have in order to
qualify as an ATDS under the TCPA is a
supportable interpretation of the statute. We
conclude that it is not.
King, 894 F.3d at 476-77. While the Second Circuit
plainly held that the 2015 Order had been invalidated,
the court nowhere explicitly addresses the validity of
the prior FCC Orders.10 The courts that hold that King
The Third Circuit also declined to take a stance on the
continuing validity of the prior FCC Orders, holding only: “In
light of the D.C. Circuit’s holding, we interpret the statutory
definition of an autodialer as we did prior to the issuance of 2015
Declaratory Ruling.” Dominguez v. Yahoo, Inc., 894 F.3d 116, 119
(3d Cir. 2018). However, “[p]rior to the Dominguez case, the Third
10

App. 51
invalidated the prior FCC Orders seem to reason that
by rejecting the FCC’s views in the 2015 Order and
turning to the statutory language itself, the Second
Circuit “implicitly disavowed the continuing viability
of the 2003 and 2008 orders as concerns the definition
of an ATDS.” Peralta, 2018 WL 6331798, at *5; see also
Grogan, 2018 WL 6040195, at *6 (noting that in the
wake of ACA International, “courts appear to either
interpret an ATDS according to (1) the definition as
Circuit had never interpreted the statutory definition of an
ATDS.” Richardson, 354 F. Supp. 3d at 647. In Dominguez, “the
Third Circuit held, albeit implicitly, that a device must itself have
the ability to generate random or sequential telephone numbers
to be dialed.” Id. at 650 (quotation marks omitted) (quoting ACA
Int’l, 885 F.3d at 701); see also Dominguez, 894 F.3d at 120-21.
Unlike the Second and Third Circuits, the Ninth Circuit
made clear that in the wake of ACA International, “the FCC’s
prior orders on [the issue of the definition of an ATDS] are no
longer binding on [it],” Marks v. Crunch San Diego, LLC, 904 F.3d
1041, 1049 (9th Cir. 2018), petition for cert. filed, No. 18-995 (Jan.
28, 2019), reasoning that the D.C. Circuit “reopened consideration
of the definition of ATDS established in the FCC’s [prior Orders]”
and that the invalidation of the 2015 Order also invalidated “any
prior FCC rules that were reinstated by the 2015 [O]rder,” id. at
1047, 1049. The Marks court thus “look[ed] at the context and the
structure of the statutory scheme” and determined that the
“language in the statute indicates that equipment that made
automatic calls from lists of recipients was also covered by the
TCPA.” Id. at 1051. While neither the Third nor the Ninth Circuit
opinions are binding on this court, they shed light on the complex
legal landscape surrounding ACA International and the TCPA’s
definition of an autodialer. See also Maes v. Charter Commc’n, 345
F. Supp. 3d 1064, 1069 (W.D. Wis. 2018) (questioning the Marks
court’s conclusion that the D.C. Circuit “invoked jurisdiction” to
review the prior FCC Orders and noting that even if it did, “the
[D.C. Circuit] did not actually review them” but rather limited its
analysis and holding to the 2015 Order).

App. 52
espoused in the 2003 and 2008 FCC orders; or (2) the
statutory language itself ”).
The Second Circuit, however, only analyzed the
meaning of “capacity” under “the statutory language
itself.” As discussed earlier, the court declined to weigh
in on the requisite functions of an autodialer.
Importantly, the invalidation of the 2015 Order does
not have the same impact on “capacity” as it does on
autodialer functions. Regarding “capacity,” the invalidation of the 2015 Order forces courts to analyze
“capacity” under the statute, because the FCC had not
offered prior guidance on the term.11 The FCC had,
however, offered prior guidance on requisite autodialer
See, e.g., 2015 Order, supra, ¶ 11 (noting that businesses
are seeking clarification on whether the term “capacity” is limited
to the “current capacity” or “present ability” of the dialing
equipment, without further modification). In the 2015 Order, the
FCC says that its prior orders on predictive dialers demonstrate
that “autodialers need only have the ‘capacity’ to dial random and
sequential numbers, rather than the ‘present ability’ to do so.” Id.
¶ 15 (citing 2003 Order, supra, ¶¶ 132-33). The 2003 Order,
however, left open the question of whether a predictive dialer
becomes an autodialer only after the predictive-dialing software
is added and utilized. See 2003 Order, supra, ¶ 131 (“[A]
predictive dialer is equipment that dials numbers and, when
certain [predictive-dialing] software is attached, also assists
telemarketers in predicting when a sales agent will be available
to take calls.”); id. ¶ 133 (“[T]o exclude . . . equipment that use
predictive dialing software from the definition of [ATDS] simply
because it relies on a given set of numbers would lead to an
unintended result.”); see also Marks, 904 F.3d at 1046 (noting that
the FCC, in its 2015 Order, “went . . . further” than it had before
in “determin[ing] that a device could have the requisite capacity
[to function as an autodialer] if it had any potential to be
configured for that purpose” (citing 2015 Order, supra, ¶ 15)).
11

App. 53
functions, see 2003 Order, supra, ¶¶ 129-33; 2008
Order, supra, ¶¶ 12-13; 2012 Order, supra, ¶ 2 n.5, so
the invalidation of the 2015 Order does not necessarily
send courts back to the statute to analyze these
functions. I understand the Second Circuit’s statement
that “an administrative interpretation of the statute
. . . has now been invalidated” and it must “consider
the meaning of the statute independently, without an
administrative interpretation to defer to” as limited to
the meaning of the term “capacity.” King, 894 F.3d at
482 (holding that “the best interpretation of the
statutory language is the one suggested by the D.C.
Circuit’s discussion in ACA International: in the
TCPA’s definition of an autodialer, a device’s ‘capacity’
refers to its current functions absent additional
modifications”). I find support for this interpretation in
the Second Circuit’s decision not to mention the prior
FCC Orders or weigh in on the functions an autodialer
must possess. See id. at 481-82. Thus, the critical
question for the courts in this circuit is whether
invalidating the 2015 Order implicitly invalidates the
analogous portions of the prior FCC Orders discussing
autodialer functions. For the following reasons, I
conclude that it does not.
While courts in this circuit do not appear to have
addressed the issue, a growing number of courts in
other circuits have. See, e.g., Richardson, 354 F. Supp.
3d at 645-47 (collecting cases). Many courts have
upheld the validity of the prior FCC Orders, in large
part because ACA International does not clearly
address the validity of these Orders. See, e.g., Reyes v.

App. 54
BCA Fin. Servs., Inc., 312 F. Supp. 3d 1308, 1321 (S.D.
Fla. 2018) (“[N]owhere in the D.C. Circuit’s opinion are
the prior FCC orders overruled.”); see also Richardson,
354 F. Supp. 3d at 645-46 (collecting cases); Pl.’s Reply
12-14 (same). Courts finding that the invalidation of
the 2015 Order implicitly invalidates the prior FCC
Orders generally engage in a two-part analysis. First,
the courts cite to the D.C. Circuit’s holding that the
2015 Order is invalid because it offers competing views
as to whether an autodialer must be able to generate
random or sequential numbers. See Thompson-Harbach v. USAA Fed. Sav. Bank, No. 15-CV-2098-CJWKEM, 359 F. Supp. 3d 606, 620-23, 2019 WL 148711, at
*10-11 (N.D. Iowa Jan. 9, 2019); Richardson, 354
F. Supp. 3d at 646-47; Pinkus v. Sirius XM Radio, Inc.,
319 F. Supp. 3d 927, 934-35 (N.D. Ill. 2018); Sessions v.
Barclays Bank Del., 317 F. Supp. 3d 1208, 1212-13
(N.D. Ga. 2018). Second, the courts conclude that the
2003 Order must also offer a competing view, because
as the D.C. Circuit noted, both the 2003 and 2015
Orders drew a distinction between numbers that are
randomly or sequentially generated and numbers that
come from lists. See Thompson-Harbach, 359 F. Supp.
3d at 622-24, 2019 WL 148711, at *11; Richardson, 354
F. Supp. 3d at 646-47; Pinkus, 319 F. Supp. 3d at 935;
Sessions, 317 F. Supp. 3d at 1212.
This line of reasoning is incorrect. As discussed
earlier, the 2003 Order clearly holds that equipment
that calls from a list can meet the statutory definition
of an autodialer. See supra Section II.A.i-ii; see also
Maes v. Charter Commc’n, 345 F. Supp. 3d 1064, 1069

App. 55
(W.D. Wis. 2018). While the D.C. Circuit did bring
attention to the 2003 Order’s distinction between
randomly or sequentially generated numbers and a list
of numbers, it did so only to reinforce its understanding of the 2015 Order, i.e., that the FCC’s use of “dialing
random or sequential numbers” meant “generating
those numbers and then dialing them.” See ACA Int’l,
885 F.3d at 702. Only the 2015 Order contained a
contradiction, however, by stating that equipment
must have the capacity to “dial random or sequential
numbers” in order to qualify as an autodialer. See
supra Section II.A.ii; see also Maes, 345 F. Supp. 3d at
1068 (“[T]he flaw in the 2015 ruling was not that it
reaffirmed the 2003 order, but that it both reaffirmed
the 2003 order and contradicted it.”). In fact, the D.C.
Circuit expressly declined to endorse either
interpretation of an autodialer. See ACA Int’l, 885 F.3d
at 702-03 (“The 2015 ruling . . . gives no clear answer
(and in fact seems to give both answers). It might be
permissible for the Commission to adopt either
interpretation. But the Commission cannot, consistent
with reasoned decisionmaking, espouse both competing interpretations in the same order.”). Because the
logic behind invalidating the 2015 Order does not
apply to the prior FCC Orders, I conclude that the
invalidation of the 2015 Order does not implicitly
invalidate the prior FCC Orders. See also Maes, 345
F. Supp. 3d at 1068-70 (finding the same). I will
therefore continue to rely on those Orders to interpret
the definition of an autodialer.

App. 56
B. ExpressText and EZ Texting
As discussed earlier, I interpret the prior FCC
Orders as holding that equipment can meet the
definition of an autodialer if it pulls from a list of
numbers, so long as the equipment also has the
capacity to dial those numbers without human intervention. See supra Section II.A.i. Plaintiff concedes
that the programs at issue lack the ability to generate
randomized or sequential numbers. See Pl.’s Br. 16
(“Their websites do not indicate that these systems
have the capacity to actually ‘produce’ telephone numbers ‘using a random or sequential number generator.’
Rather, the automated text messaging works off of a
pre-established list of numbers that have been
uploaded into the system.” (citation omitted)); see also
Patel Aff. ¶¶ 8-9 (stating that ExpressText “does not
have the ability to generate randomized or sequential
lists of contact cell phone numbers” and “does not dial
cell phone numbers or send text messages sequentially
or randomly”); Ramos, 334 F. Supp. 3d at 1265 (“[T]he
CEO of . . . the company that owns the EZ-texting
program[ ] confirms that the program can only be used
to send messages to specific identified numbers that
have been inputted into the system by the customer . . .
[and] does not have the ability to . . . generate phone
numbers.”). Because I do not understand the prior FCC
Orders as requiring random or sequential number
generation, I do not find that the programs’ reliance on
a database of numbers disqualifies them from TCPA
coverage; rather, I conclude that they do not qualify as

App. 57
autodialers because they are not capable of dialing
numbers without human intervention.
There is no dispute that for the programs to
function, “a human agent must determine [the time to
send the message], the content of the messages, and
upload the numbers to be texted into the system.” Pl.’s
Reply 16; see also Pl.’s Br. 14-16; Patel Dep. 10:10-12;
Najera Dep. 40:7-11. Plaintiff argues that these programs operate without human intervention because
“the user does not have to ‘click’ before each number is
dialed. Rather, the user can simply direct the system
to fire off thousands of texts at a designated time.” Pl.’s
Reply 16. Neither the FCC Orders nor the relevant
case law support plaintiff ’s understanding of what it
means to operate without human intervention. When
the FCC expanded the definition of an autodialer to
include predictive dialers, the FCC emphasized that
“[t]he principal feature of predictive dialing software is
a timing function.” 2003 Order, supra, ¶ 131 (emphasis
added). Thus, the human-intervention test turns not
on whether the user must send each individual
message, but rather on whether the user (not the
software) determines the time at which the numbers
are dialed. See Blow v. Bijora, Inc., 191 F. Supp. 3d 780,
788 (N.D. Ill. 2016) (“The uncontested facts show that
the technology in this case does not possess . . . the sine
qua non of a predictive dialer—the ‘timing function.’
The FCC considers predictive dialers to fall within the
definition of an ATDS because the dialer itself, and not
the user, decides when to call.” (citation omitted) (citing
2003 Order, supra, ¶ 131)), aff ’d on other grounds, 855

App. 58
F.3d 793 (7th Cir. 2017);12 see also Ramos, 334 F. Supp.
3d at 1275 (concluding that the EZ Texting program
used by defendant “was not an ATDS” because “no text
message would have been sent” if defendant “had not
ultimately pressed ‘send’ to authorize the EZ-Texting
platform to send the text message”). The Ramos court
examined four cases dealing with EZ Texting or a
similar program. See id. at 1274-75. In each case, the
court granted summary judgment for the defendant
and found that the program required too much
human involvement to be an ATDS. See Herrick v.
GoDaddy.com LLC, 312 F. Supp. 3d 792, 803 (D. Ariz.
2018) (“[Defendant] . . . had to . . . log into the system,
create a message, schedule a time to send it, and
perhaps most importantly, enter a code to authorize its
ultimate transmission. As such, the text was not sent
automatically or without human intervention and thus
was not sent using an autodialer. . . .”), appeal
docketed, No. 18-16048 (9th Cir. June 7, 2018); Luna v.
Shac, LLC, 122 F. Supp. 3d 936, 941 (N.D. Cal. 2015)
(“[H]uman intervention was involved in several stages
of the process prior to Plaintiff ’s receipt of the text
message, and was not limited to the act of uploading
the telephone number to the . . . database. . . . As
explained above, human intervention was involved in
drafting the message, determining the timing of the
message, and clicking ‘send’ on the website to transmit
Although the Seventh Circuit found the district court’s
determination that the software was not capable of dialing
numbers without human intervention “premature,” see Blow, 855
F.3d at 802, I agree with the district court’s interpretation of the
2003 Order.
12

App. 59
the message to Plaintiff.”), appeal dismissed, No. 1516790 (9th Cir. Nov. 20, 2015); see also Jenkins v. mGage,
LLC, No. 1:14-cv-2791-WSD, 2016 WL 4263937, at *57 (N.D. Ga. Aug. 12, 2016); Blow, 191 F. Supp. 3d at
788.13
To support his understanding of human intervention, plaintiff relies on a number of cases dealing with
predictive dialers. The programs at issue in this case,
however, are not predictive dialers, and the predictivedialer cases cited by plaintiff actually support the
notion that a program does not qualify as an autodialer
unless a computer determines when to send the
message. See Espejo v. Santander Consumer USA, Inc.,
No. 11 C 8987, 2016 WL 6037625, at *4 (N.D. Ill. Oct.
14, 2016) (holding that “there is little [human
intervention] to speak of ” as the “ ‘dialer’—not the
agents—makes the calls ‘by dialing numbers from the
uploaded list’ ”); Strauss v. CBE Grp., 173 F. Supp. 3d
1302, 1309 (S.D. Fla. 2016) (“To determine whether a
dialer is a predictive dialing system, and therefore an
ATDS, ‘the primary consideration . . . is whether
human intervention is required at the point in time at
In Marks, the Ninth Circuit “conclude[d] there is genuine
issue of material fact as to whether” a similar program
constituted an ATDS. 904 F.3d at 1053; see also id. at 1048
(describing program). The Marks decision is not applicable to the
instant matter, however, because after concluding that ACA
International invalidated the prior FCC Orders, see id. at 1049,
the court adopted a broad interpretation of human intervention,
see id. at 1052-53. While Marks likely undermines the precedential value of Herrick and Luna within the Ninth Circuit, I
continue to find these cases useful, as they analyze the humanintervention standard under the prior FCC Orders.
13

App. 60
which the number is dialed.’ ”) (quoting Brown v. NRA
Grp., No. 6:14-cv-610-Orl-31-KRS, 2015 WL 3562740,
at *2 (M.D. Fla. June 5, 2015)); In re Collecto, Inc., No.
14-MD-02513-RGS, 2016 WL 552459, at *4 n.9 (D.
Mass. Feb. 10, 2016) (distinguishing between programs
that require human intervention solely “to activate the
process (by assembling a list of numbers and uploading
them to the dialer)” from programs where “human
intervention [is] required to dial the target telephones”).14 While I agree with plaintiff that “[a]n
unsolicited text delivered at, say, 5:00 PM will be
equally obtrusive whether it was a human being or a
computer who determined that it should be delivered
Plaintiff also cites to Zeidel v. A & M (2015) LLC, No. 13cv-6989, 2017 WL 1178150 (N.D. Ill. Mar. 30, 2017). In Zeidel, the
court found that a “welcome” message sent automatically to
customers once their information was uploaded into defendant’s
database may qualify as a message sent from an ATDS. See id. at
*2, *10-11; see also id. at *11 (holding that “the human
intervention test of the 2003 FCC Order does not inquire as to
whether there is human intervention at the entering of a ‘given
set of numbers’ or programming of the computer system, but
rather if there is human intervention at the time a call is
made/placed or when a number is actually dialed” and that
“[h]ere, there is no human intervention at the time the ‘welcome’
text is sent” (quoting Morse v. Allied Interstate, LLC, 65
F. Supp. 3d 407, 410 (M.D. Pa. 2014))). Zeidel suggests only that
the initial text plaintiff received may have come from an ATDS,
because the initial text was also sent automatically to plaintiff
after his number was added to defendant’s database. See Najera
Dep. 36:2-11. As discussed above, because plaintiff consented to
this initial text by giving his number to defendant, it is not subject
to TCPA liability. See supra Section I. The initial text differs from
defendant’s subsequent texts, which required a user to select the
recipients and determine “the time [the] call [was] made/placed.”
Zeidel, 2017 WL 1178150, at *11.
14

App. 61
then,” Pl.’s Reply 16, the requirement that a computer
determine the time in order for the device to qualify as
ATDS is not arbitrary. The FCC decided to include
predictive dialers under the statutory definition of an
ATDS because “[t]he legislative history . . . suggests
that through the TCPA, Congress was attempting to
alleviate a particular problem—an increasing number
of automated and prerecorded calls.” 2003 Order,
supra, ¶ 133. Presumably, programs with computer—
run timing functions have the capability to barrage
consumers at a higher rate than programs requiring
more human involvement.
In sum, because a user determines the time at
which the ExpressText and EZ Texting programs send
messages to recipients, they operate with too much
human involvement to meet the definition of an autodialer. Summary judgment for plaintiff is therefore
improper. Further, since plaintiff ’s motion turns on
whether the programs qualify as autodialers, I conclude that “all of the evidentiary materials that
[plaintiff ] might submit in response to a motion for
summary judgment [on this issue] are before the
court.” Bridgeway Corp., 201 F.3d at 140. Because the
record reveals no material dispute as to how the
programs work, and I find that the programs are not
autodialers as a matter of law, a sua sponte grant of
summary judgment against plaintiff is appropriate.
See id.

App. 62
CONCLUSION
For the reasons stated in this opinion, plaintiff ’s
motion for summary judgment is denied, and summary
judgment for defendant is granted sua sponte. The
Clerk of Court is directed to enter judgment accordingly and close the case.
SO ORDERED.
____________/s/____________
Allyne R. Ross
United States District Judge
Dated: February 25, 2019
Brooklyn, New York

